AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Special Report

 The Department of Energy’s
 Response to Hurricanes Katrina and
 Rita




 DOE/IG-0707                              November 2005
                                             2

In August and September 2005, two major hurricanes hit the Gulf coast region of the
United States: Hurricanes Katrina and Rita. The storms devastated the region and left
about four million customers without electric power. The damage to oil production and
refining infrastructure and the lack of electricity caused the shut down of large segments
of the domestic petroleum industry. As of October 11, 2005, seven refineries had not
resumed full operations due to hurricane-related damage, resulting in lost refinery
production of about 1.9 million barrels per day. This represents about 11 percent of the
Nation’s total refinery capacity. The storms also caused extensive damage to the Gulf
coast region’s natural gas infrastructure. Despite the enormity of the damage, hurricane
recovery is underway and considerable progress has been made. More is expected by the
end of 2005.

CONCLUSIONS AND OBSERVATIONS

We found that the Department was effective in fulfilling its responsibilities under the
National Response Plan. It took what we deemed to be a set of appropriate actions
designed to assist in the restoration of energy systems after Hurricanes Katrina and Rita.
The Department:

   •   Initiated policy and regulatory actions needed to assist energy recovery efforts
       and mitigate the impacts of the hurricanes;

   •   Coordinated with the energy industry and with other governmental agencies, both
       Federal and state, to identify supporting resources and facilitate the restoration of
       energy systems; and,

   •   Continuously monitored the status of energy system damage and repair work, and
       disseminated this information in a timely manner to interested entities in the
       governmental and private sectors.

The Department’s senior management provided highly visible direction to the energy
recovery effort. On August 31, 2005, you announced approval of the first loan of oil
from the Strategic Petroleum Reserve to refineries whose supplies of crude oil had been
disrupted during the disasters. Further, on September 28, 2005, the Department used its
regulatory authority to hasten power restoration in East Texas when you signed an order
that authorized and directed a connection of electrical transmission lines across
regulatory boundaries. The Department also provided equipment and personnel in
support of various emergency response centers to assist in the restoration of energy
systems in the affected areas. A more detailed chronology of some of the Department’s
most significant actions is provided in Appendix 2 of the report.

While the Department’s response mechanism was effective, as discussed previously, we
did identify certain actions which could enhance future ESF-12 missions. These include
improving communication channels between and among private and governmental bodies
and the Department; strengthening the Department’s ability to identify emergency
response assets in advance of events such as natural disasters; and, augmenting the
staffing and provisioning of ESF-12 emergency response teams which are the
Department’s most direct representatives in crisis situations.
                                             3

In reaching our conclusions regarding the effectiveness of Department activities, we
obtained information from and interviewed a number of individuals external to the Office
of Electricity Delivery and Energy Reliability. This included private sector entities such
as Exxon Mobile Corporation, Entergy Corporation, and Colonial Pipeline Company.
We also discussed the Department’s response with governmental officials from the
Department of Homeland Security and the Federal Energy Regulatory Commission.

The Inspector General review began on October 5, 2005. Our observations regarding the
Department’s response to these natural disasters closely parallel your testimony before
the Senate Energy and Natural Resources Committee on October 27, 2005.

This review was conducted as a part of the President’s Council on Integrity and
Efficiency’s (PCIE) examination of relief efforts provided by the Federal government in
the aftermath of Hurricanes Katrina and Rita. As such, a copy of the report has been
forwarded to the PCIE Homeland Security Working Group which is coordinating reviews
of this subject on a government-wide basis.

MANAGEMENT REACTION

The Director, Office of Electricity Delivery and Energy Reliability, concurred with the
recommendations in the report. Management’s comments are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Under Secretary for Energy, Science and Environment
      Administrator, National Nuclear Security Administration
      Chief of Staff
      Director, Office of Electricity Delivery and Energy Reliability
SPECIAL REPORT ON THE DEPARTMENT OF ENERGY’S RESPONSE
TO HURRICANES KATRINA AND RITA



TABLE OF
CONTENTS


  Department’s Performance of the ESF-12 Mission

  Department’s Performance                          1

  Opportunities for Improvement                     3

  Recommendations                                   4


  Appendices

  1. Objective, Scope, and Methodology              6

  2. Chronology of Significant Department Actions   8

  3. Management Comments                            9
Department’s Performance of the ESF-12 Mission

Department’s        Based on the results of our review, which included discussions
Performance         with affected private corporations and government officials, the
                    Department of Energy (Department) met its responsibilities under
                    the National Response Plan by taking aggressive actions to restore
                    energy systems in response to Hurricanes Katrina and Rita. This
                    included serving as the focal point for numerous issues and policy
                    decisions to assist recovery efforts relating to the devastating
                    impact of the hurricanes, specifically concerning the energy sector.
                    In addition, the Department coordinated with energy industries and
                    governmental agencies to identify supporting resources and to
                    expedite the repair and restoration of energy producing facilities.
                    The Department also monitored energy system damage and repair
                    work, disseminating status information to utilities, refiners, natural
                    gas pipeline operators, as well as state and local governments and
                    Federal agencies.

                                      Focal Point for Policy Decisions

                    The Department’s Emergency Support Function-12 (ESF-12)
                    placed 35 responders at nine emergency operation centers to
                    coordinate energy recovery responses with energy firms, state
                    governments, and Federal agencies. We analyzed the activity logs
                    for deployed ESF-12 personnel. The analysis showed that the
                    Department was aggressive in collecting energy restoration
                    information and that assistance requests were coordinated with
                    appropriate parties throughout the affected geographic area. ESF-
                    12 personnel also communicated with state energy representatives,
                    providing the opportunity to share information on recovery issues
                    and other actions taken in response to the hurricanes.

                    By serving as a focal point for critical energy-related data, the
                    Department was able to identify situations requiring intervention
                    by the Secretary of Energy (Secretary). Specifically, this allowed
                    the Secretary to exercise his authority in making policy and
                    regulatory decisions affecting energy supply and restoration. For
                    example, on August 31, 2005, the Secretary announced his
                    approval of the first loan of oil from the Strategic Petroleum
                    Reserve to refineries whose supplies had been cut off by
                    disruptions in production. On September 28, 2005, the Department
                    used its regulatory authority to hasten power restoration in East
                    Texas when the Secretary signed an order that authorized and
                    directed a connection of electrical transmission lines across
                    regulatory boundaries. Additionally, the Department worked with
                    other Federal agencies and affected states to obtain regulatory




Page 1                                                    Department’s Performance
         waivers for gasoline and diesel fuel formulations, safety
         regulations limiting driver service hours, and vehicle weight
         restrictions to mitigate the impact of fuel supply disruptions and
         ease recovery efforts.

                       Identification of Supporting Resources

         The Department also identified needed supporting resources to
         facilitate the restoration of energy systems. For example, the
         Department provided assistance to the Colonial Pipeline Company
         (Colonial), which transports 100 million gallons of fuel daily
         throughout much of the southern United States, to obtain
         replacement generators to restart its pipeline. The Department
         worked with the Mississippi State Highway Patrol to allow
         delivery of the generators and provide security for Colonial’s
         repair crews. In addition, Department personnel facilitated the
         reopening of a refinery in Port Arthur, Texas, by drafting access
         authorization letters, which allowed the delivery of equipment and
         personnel to the refinery after workers were prohibited from
         returning to the refinery by law enforcement officials. The
         Department also took numerous actions in cooperation with
         Federal agencies and industry to provide food, water, diesel fuel,
         and sleeper cars to emergency response and repair crews in
         Louisiana.

                        Monitoring Damage and Repair Work

         Finally, the Department monitored energy system damage and
         repair work and disseminated updated status information in a
         timely manner to industry, state and Federal government agencies,
         and to interested citizens. The Department began posting situation
         reports on its website before Hurricane Katrina struck Louisiana
         and has continued to provide updates throughout the restoration
         process. As of October 20, 2005, the Department had placed on its
         website 63 Gulf coast situation reports and 10 power outage maps.
         The reports were an important tool in communicating the extent of
         damage to the Gulf coast’s energy infrastructure and the progress
         of repair work. According to energy industry and agency officials
         at the Federal Energy Regulatory Commission and the Federal
         Emergency Management Agency, the timeliness and accuracy of
         the situation reports helped in assessing impacts to the energy
         supply while ensuring that reliable information was provided to the
         public. In addition, Departmental ESF-12 personnel provided
         information about power outages and estimated power restoration
         during Hurricane Rita. This information allowed officials to
         effectively allocate resources needed for emergency response.



Page 2                                        Department’s Performance
Opportunities for   While the Department took, what we concluded to be, effective
Improvement         action to assist in restoring energy systems in response to
                    Hurricanes Katrina and Rita, we identified opportunities to
                    improve the Department’s response in future ESF-12 missions.
                    These opportunities include: streamlining communications,
                    leveraging Department assets, adequately provisioning the ESF-12
                    emergency response teams, and determining appropriate
                    emergency support staffing levels.

                                      Communications Management

                    During the hurricanes, the Department received duplicative
                    requests for information when external entities requested the same
                    information from different ESF-12 personnel. Problems arose
                    when several ESF-12 personnel were independently working to
                    collect and provide the same information in response to the
                    multiple requests. Because of the Department’s mission to serve
                    as a focal point for energy-related issues, the effective management
                    of communications from external and internal sources is crucial to
                    success. Accordingly, the Department needs to clarify the
                    appropriate point of contact to whom external sources should
                    direct future information requests. This information should be
                    disseminated proactively to Department personnel and to
                    appropriate external sources.

                                            Department Assets

                    Although Departmental assets were used in response to energy
                    restoration requests, the Department did not have a mechanism
                    readily available to identify emergency equipment or personnel
                    that could be used to assist in restoration efforts. In responding to
                    the energy disruptions, the Y-12 National Security Complex
                    provided surplus power generators for Hurricane Katrina relief in
                    Louisiana, and the Southwestern Power Administration helped
                    restore power to over 20,000 customers in Southeast Texas.
                    However, officials acknowledged that while there is a cadre of
                    knowledgeable Department personnel, there were difficulties in
                    real-time identification of individuals who had the detailed
                    knowledge to assist in particular situations caused by the
                    hurricanes. These included those with expertise in energy markets,
                    and distribution and delivery systems problems. Maintaining an
                    inventory of Department assets which are available on a
                    contingency or stand-by basis, both equipment and personnel,
                    should improve future ESF-12 efforts.




Page 3                                               Opportunities for Improvement
                                        Responder Equipment

                  The Department established so-called “Go Kits” of equipment to
                  support responders during their deployment. Department
                  managers and responders identified several equipment additions
                  that would enhance the “Go Kits” to assist the responders during
                  deployment. For example, we interviewed several responders who
                  indicated their hurricane relief efforts would have been more
                  effective if they had been equipped with mobile global positioning
                  systems and properly-configured computer equipment. We
                  concluded that the Department should develop a standardized suite
                  of responder equipment that included all items needed for
                  maximum self-sufficiency. This would assist responders in
                  meeting their mission assignments during their deployment.

                                     Emergency Support Staffing

                  The impacts of Hurricanes Katrina and Rita strained the
                  Department’s ESF-12 staffing levels and its ability to respond to
                  multiple disasters simultaneously. In 2005, the responsibility for
                  the ESF-12 function was transferred to the Office of Electricity
                  Delivery and Energy Reliability. While the organization had 8
                  personnel dedicated as initial emergency responders, the severity
                  and magnitude of the hurricanes required the deployment of 35
                  personnel to 9 different emergency centers. The Department
                  augmented its staffing during the crisis with trained contractor
                  personnel and Federal employee volunteers from within the
                  Department. In light of the multiple challenges faced in the recent
                  efforts, staffing requirements necessary to fulfill ESF-12
                  requirements should be reexamined to ensure that the Department
                  is in a position to fully meet its obligations under the National
                  Response Plan.


RECOMMENDATIONS   We recommend that the Director, Office of Electricity Delivery
                  and Energy Reliability:

                     1. Clarify with external sources the appropriate ESF-12 point
                        of contact to whom they should direct information requests,
                        and proactively disseminate such information to
                        Department of Energy personnel and appropriate external
                        sources;

                     2. Develop an inventory of available Department resources
                        for emergency energy restoration;




Page 4                                                          Recommendations
                3. Ensure that deployed teams are adequately provisioned
                   with a standardized suite of equipment; and,

                4. Determine whether additional personnel are necessary to
                   meet the Department’s National Response Plan obligations.


MANAGEMENT   The Director, Office of Electricity Delivery and Energy Reliability,
REACTION     concurred with the recommendations in the report. Management
             was in full agreement with the four recommendations contained in
             the report and provided appropriate action plans to address the
             recommendations. Management’s comments are included in
             Appendix 3.




Page 5                                   Recommendations and Comments
Appendix 1


OBJECTIVE     The objective of this review was to identify the actions taken by
              the Department in response to Hurricanes Katrina and Rita and to
              assess whether these actions fulfilled the Department’s obligations
              as stated in the Department of Homeland Security’s National
              Response Plan.


SCOPE         The review was performed in October 2005, at the Office of
              Electricity Delivery and Energy Reliability in Washington,
              D.C. In particular, we performed a review of specific
              ESF-12 actions taken by the Department in response to the
              hurricanes.


METHODOLOGY   To assess the Department’s response to Hurricanes Katrina and
              Rita, we:

                 •   Discussed actions taken by the Department with other
                     Federal entities, including representatives from the Federal
                     Emergency Management Agency (FEMA) and the Federal
                     Energy Regulatory Commission;

                 •   Interviewed Department officials from the Office of
                     Electricity Delivery and Energy Reliability and the Office
                     of General Counsel;

                 •   Obtained information from the Bonneville Power
                     Administration, Southwestern Power Administration,
                     Southeastern Power Administration, and the Western Area
                     Power Administration;

                 •   Spoke with industry officials from Exxon Mobil
                     Corporation, Entergy Corporation (Entergy), and Colonial
                     Pipeline Company;

                 •   Interviewed the Department’s initial emergency response
                     team members;

                 •   Identified the Department’s ESF-12 responsibilities
                     contained in the Department of Homeland Security’s
                     National Response Plan;




Page 6                                   Objective, Scope, and Methodology
Appendix 1 (continued)


                         •   Reviewed the Office of Electricity Delivery and Energy
                             Reliability’s Emergency Support Function-12 Operations
                             Manual;

                         •   Examined the Department’s Gulf Coast Hurricanes
                             Situation Reports and emergency response team logs;

                         •   Reviewed the Office of Electricity Delivery and Energy
                             Reliability organizational structure;

                         •   Reviewed the Department’s listing of potential emergency
                             response team members and deployment schedules;

                         •   Evaluated the Department’s communication channels;

                         •   Examined Lessons Learned documents; and,

                         •   Reviewed hurricane information posted on various internet
                             websites, including the Energy Information Administration
                             daily reports.




Page 7                                         Objective, Scope, and Methodology
Appendix 2


         CHRONOLOGY OF SIGNIFICANT DEPARTMENT ACTIONS - 2005



August 27       FEMA activates ESF-12.

August 29       Hurricane Katrina makes landfall near the Louisiana-Mississippi border.

August 31       The Secretary announces a loan from the Strategic Petroleum Reserve. The
                Department coordinates with the Environmental Protection Agency to grant
                waivers to use high-sulfur off-road diesel fuel.

September 1     The Department assists Colonial in obtaining replacement generators to restart
                its pipeline and works with the Mississippi Highway Patrol to grant Colonial
                access to its damaged facilities to bring in the generators and provide security
                for repair crews. The Department also works with FEMA so shipments of food
                and water can be quickly delivered to Entergy repair crews.

September 2     The Department works with FEMA and Amtrak to provide sleeper cars to first
                responders in New Orleans.

September 3     The Department assists in making arrangements to distribute
                1.2 million gallons of diesel fuel to first responders at 7 sites in Louisiana.

September 24 Hurricane Rita strikes near the Texas-Louisiana border. ESF-12 staff assists
             workers at a refinery in Port Arthur, Texas to obtain clearances for restoration
             work.

September 27 The Department facilitates the restoration of power to the Lake Livingston
             Pumping Station in Texas.

September 28 The Secretary issues an order to authorize and direct CenterPoint Energy to
             temporarily connect and restore power to Entergy, providing power to Texas
             residents affected by Hurricane Rita.

October 1       The Southwestern Power Administration helps restore power to over 20,000
                customers and residents in North Jasper County, Texas.




Page 8                                 Chronology of Significant Department Actions - 2005
Appendix 3




Page 9       Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
                                                                    IG Report No. DOE/IG-0707

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
